VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS




                                                                      Department of 

                                                                     Veterans Affairs 

                                                                    Independent Review of VA’s
                                                                         FY 2013 Detailed
                                                                      Accounting Submission to
                                                                     the Office of National Drug
                                                                           Control Policy




                                                                                      February 10, 2014
                                                                                       14-00258-66
To Report Suspected Wrongdoing in VA Programs and Operations: 

                   Telephone: 1-800-488-8244 

                  Email: vaoighotline@va.gov

       (Hotline Information: http://www.va.gov/oig/hotline) 

                                     TABLE OF CONTENTS

Office of Inspector General Memorandum ......................................................................................1

VHA Management Representation Letter .......................................................................................3

         Attachment               VHA’s Detailed Accounting Submission ............................................. 6

Appendix A           Office of Inspector General Contact and Staff Acknowledgements ...................14

Appendix B           Report Distribution .............................................................................................15




                                                                                                                                      i
Department of
Veterans Affairs
                                                                            Memorandum

Date:	   February 3, 2014

From:	   Assistant Inspector General for Audits and Evaluations (52)

Subj:	   Final Report: Independent Review of VA’s Fiscal Year 2013 Detailed Accounting
         Submission to the Office of National Drug Control Policy

To:	     Chief Financial Officer, Veterans Health Administration (10A3)

1. The Office of Inspector General is required to review the Department of Veterans
Affairs’ (VA) Fiscal Year 2013 Detailed Accounting Submission (Submission) to the
Director, Office of National Drug Control Policy (ONDCP), pursuant to ONDCP Circular:
Accounting of Drug Control Funding and Performance Summary (Circular), dated
January 18, 2013, and as authorized by 21 U.S.C. §1703(d)(7).* The Submission is the
responsibility of VA’s management and is included in this report as an Attachment.

2. We reviewed VA’s management’s assertions, as required by the Circular, concerning its
drug methodology, reprogrammings and transfers, and fund control notices. The assertions are
found in the Submission on page 11 of this report.

3. We conducted our review in accordance with attestation standards established by the
American Institute of Certified Public Accountants, and the applicable standards contained in
Government Auditing Standards, issued by the Comptroller General of the United States. An
attestation review is substantially less in scope than an examination. The objective of an
examination is the expression of an opinion on the assertions in the Submission. Accordingly,
we do not express such an opinion.

4. Our report, Audit of VA’s Consolidated Financial Statements for Fiscal Years 2013 and
2012 (Report No. 13-01316-22, dated November 27, 2013), identified one material weakness,
information technology security controls, which is a repeat condition. A material weakness is
a significant deficiency, or combination of significant deficiencies, that results in more than a
remote likelihood that a material misstatement of the financial statements will not be
prevented or detected. A significant deficiency is a control deficiency, or combination of
control deficiencies, that adversely affects the entity’s ability to initiate, authorize, record,
process, or report financial data reliably in accordance with generally accepted accounting
principles such that there is more than a remote likelihood that a misstatement of the entity’s
financial statements that is more than inconsequential will not be prevented or detected.

5. Based upon our review, except for the effects, if any, of the material weakness discussed
in paragraph four, nothing came to our attention that caused us to believe that management’s


*
 To view the Circular, please visit http://www.whitehouse.gov/sites/default/files/docs/2013_circular-
accounting_of_drug_control_funding_and_performance_summary.pdf.

                                                                                                        1
                       Independent Review of VA’s FY 2013 Detailed Accounting Submission to ONDCP

  assertions included in the accompanying Submission of this report are not fairly stated in all
  material respects based on the criteria set forth in the Circular.

   6. We provided you our draft report for comment. You concurred with our report without
   further comments.




   LINDA A. HALLIDAY


   Attachment




VA Office of Inspector General                                                                 2
                       Independent Review of VA’s FY 2013 Detailed Accounting Submission to ONDCP




 Department of                                                       Memorandum
 Veteran Affairs

Date:	   January 15, 2014

From:	   Chief Financial Officer, Veterans Health Administration
         Associate Chief Financial Officer, Veterans Health Administration
         Director of Budget Services, Veterans Health Administration

Subj:	   Management Representation Letter for the Independent Review of VA’s Fiscal Year
         2013 Detailed Accounting Submission to the Office of National Drug Control Policy
         (Project Number 2014-00258-R1-0030)

To: 	    Assistant Inspector General for Audits and Evaluations (52)

     1.	 We are providing this letter in connection with your attestation review of our Detailed
         Accounting Submission to the Director, Office of National Drug Control Policy
         (ONDCP).

     2.	 We confirm, to the best of our knowledge and belief, that the following representations
         made to you during your attestation review are accurate and pertain to the fiscal
         year ending on September 30, 2013.
     3.	 We confirm that we are responsible for and have made available to you the following:

     4.	 The Table of Drug Control Obligations and related assertions;

         a.	 b. All financial records and related data relevant to the Detailed Accounting
             Submission; and,

         b.	 c. Communications from the Office of National Drug Control Policy and other
             oversight bodies concerning the Detailed Accounting Submission.

     5.	 No reprogramming or transfer of funds from drug related resources, as identified in the
         Fiscal Year 2013 financial plan, occurred in Fiscal Year 2013.

     6.	 We understand your review was conducted in accordance with attestation standards
         established by the American Institute of Certified Public Accountants, and applicable
         standards contained in Government Auditing Standards, issued by the Comptroller
         General of the United States. A review is substantially less in scope than an examination
         and accordingly, you will not express an opinion on the Table of Drug Control
         Obligations and related disclosures.




VA Office of Inspector General                                                                     3
                       Independent Review of VA’s FY 2013 Detailed Accounting Submission to ONDCP


   7. No events have occurred subsequent to September 30, 2013, that would have an effect on
      the Detailed Accounting Submission.




   Attachment

   cc: Veterans Health Administration Audit Liaison (10B5)




VA Office of Inspector General                                                                 4
                       Independent Review of VA’s FY 2013 Detailed Accounting Submission to ONDCP



                                                                                   Attachment

      Statement of Disclosures and Assertions for FY 2013 Drug Control Expenditures 

       Submitted to Office of National Drug Control Policy (ONDCP) for FY Ending 

                                    September 30, 2013 


In accordance with ONDCP’s Circular, Drug Control Accounting, dated January 18, 2013, the
Veterans Health Administration asserts that the VHA system of accounting, use of obligations,
and systems of internal controls provide reasonable assurance that:

Obligations are based upon the actual expenditures as reported by the Decision Support System
(DSS).

The methodology used to calculate obligations of budgetary resources is reasonable and accurate
in all material respects and as described herein was the actual methodology used to generate the
costs.

Accounting changes are as shown in the disclosures that follow.




                                              1 of 9


VA Office of Inspector General                                                                  5
                       Independent Review of VA’s FY 2013 Detailed Accounting Submission to ONDCP



                                                                                    Attachment
                          DEPARTMENT OF VETERANS AFFAIRS

                          VETERANS HEALTH ADMINISTRATION 

                        Annual Reporting of FY 2013 Drug Control Funds 


DETAILED ACCOUNTING SUBMISSION

A. Table of FY 2013 Drug Control Obligations

                                                                        FY 2013 Final
      Description
                                                                         (in Millions)
   Drug Resources by Budget Decision Unit:
      Medical Care                                                         $634.658
      Medical & Prosthetic Research                                         $24.233
      Total                                                                $658.891
   Drug Resources by Drug Control Function:
      Treatment                                                            $634.658
      Research & Development                                                $24.233
      Total                                                                $658.891

1. Drug Control Methodology

The Table of FY 2013 Drug Control Obligations (above) and the Resource Summary (page 8)
showing obligations and FTE (Full-Time Equivalent) for Substance Abuse treatment in VHA are
based on specific patient encounters. This is for all inpatient and outpatient episodes of care
whether provided by VHA staff or purchased in the community.           The source data for VHA
inpatient care is the Patient Treatment File (PTF). For Outpatient Care it is the National Patient
Care Database Encounter file (SEFILE). For contract care it is either the PTF or the hospital
payment file. For outpatient FEE Care it is the Provider Payment file.

All of these data sources have a diagnosis associated with the encounter. The primary diagnosis
is considered the reason the patient is being treated and is used to determine whether the
treatment provided is substance abuse treatment and which type of substance abuse. Below is a
list of Diagnosis groups used.

    Diagnosis Code                           Description
         292.xx           Drug Induced Mental Disorders
         304.xx           Drug Dependence
                          Nondependent Abuse of Drugs (excluding 305.0 –
         305.xx
                          Alcohol Abuse and 305.1 – Tobacco Use Disorder)


                                              2 of 9


VA Office of Inspector General                                                                  6
                       Independent Review of VA’s FY 2013 Detailed Accounting Submission to ONDCP



                                                                                      Attachment

It should be noted that Prescriptions and Lab tests do not have linkages to a specific diagnosis
and are not included in the report.

The cost of the VHA provided services is assigned through the Decision Support System (DSS)
management cost accounting system and is based on the products consumed by producing
departments. Every product is valued and assigned a cost. All the cost of all the products a
patient uses are rolled up. A national data extract of patients at the encounter level is created and
is the source of the cost. An additional extract at the encounter level also splits out the DSS
intermediate product department, (NDE IPD). The cost of the contracted care comes from the
Inpatient (Hospital) and Outpatient (FEE) payment systems. The DSS costs and payments are
expenditures. These expenditure costs are modified to reflect full VHA obligations.

The FTE calculation is based on the DSS staff mapping to DSS Departments which are the
production units. As we noted above, all the products are accumulated to an encounter. The
DSS NDE IPD extracts show the cost of the encounter by department and the cost by three cost
categories; Variable Direct, Fixed Direct and Fixed Indirect. All the costs, including the fixed
costs, from all the departments are included in the cost calculation; however, there are no FTE
numbers in the extract.

The Monthly Program Cost Report (MPCR) is a secondary DSS cost report which allows for the
calculation of FTE at a detailed level. The DSS Department costs and FTE are aggregated to the
service level, the clinic stop and the treating specialty. The portion of the DSS Department’s
costs and FTE can be assigned to these levels based on the DSS IPD extract. The FTE
calculation assumes that a proportionate amount of each DSS Department’s FTE is associated
with each dollar assigned. The FTE calculation only uses the Direct Care Departments costs.
The average Direct FTE/Cost is calculated for each Clinic stop and Treating specialty at each
medical center/CBOC. The service specific FTE/dollars are multiplied by the cost of the service
providing substance abuse care. The result is the FTE.

MEDICAL CARE

Year in Review

According to the 2012 Drug and Alcohol Program Survey (DAPS), at the start of FY 2013, 56
percent of VA facilities were able to offer 24-hour Substance Use Disorder (SUD) care on-site,
41 percent of facilities offered intensive outpatient services as their highest intensity of SUD
care, and 82 facilities (59%) reported offering stand-alone intensive outpatient treatment that was
not a component of a 24-hour care program. In FY 2012, 97 percent of facilities offered either
24-hour care or intensive outpatient programming on site. All VA facilities currently provide
SUD services within a specialty setting, as well as in general mental health settings.




                                               3 of 9

VA Office of Inspector General                                                                     7
                       Independent Review of VA’s FY 2013 Detailed Accounting Submission to ONDCP



                                                                                    Attachment

VA provides two types of 24-hour-a-day care to patients having particularly severe substance use
disorders. VA offers 24-hour care in residential rehabilitation treatment programs for substance
use disorders. Additionally, 24-hour care is provided for detoxification in numerous inpatient
medical and general mental health units throughout the VA system. Outpatient detoxification is
available for patients who are medically stable and who have sufficient social support systems to
monitor their status. Most Veterans with substance use disorders are treated in outpatient
programs. Intensive substance use disorder outpatient programs provide at least three hours of
service per day to each patient, and patients attend them three or more days per week. Standard
outpatient programs typically treat patients for an hour or two per treatment day and patients
attend one or two days a week.

VA continues to expand the availability of opioid agonist treatment for Veterans with opioid use
disorders. In FY 2013, evidence-based medication assisted treatment for opioid dependence,
including buprenorphine, was available at 155 locations that served at least 10 patients and an
additional 125 CBOCs or other locations that had at least some active buprenorphine treatment.
VA operates methadone maintenance programs at 28 facilities and 25 VHA facilities maintain
contractual arrangements for providing these services through community-based licensed opioid
agonist treatment programs.

VHA has also expanded access to other SUD treatment services with continued special purpose
funding for 406 SUD staff assigned to work in large community based outpatient clinics, mental
health residential rehabilitation programs, intensive SUD outpatient programs and post traumatic
stress disorder (PTSD) teams. Active monitoring is ongoing for replacing any positions that
become vacant.

Consistent with principles of recovery, VA is setting the standard for a new and emerging health
care profession, known as “Peer Specialists.” As of November 5, 2013, VHA had hired 815 Peer
Specialists and Peer Apprentices, exceeding the hiring goal set in President Obama’s August 31,
2012, Executive Order aimed at improving access to mental health services for Veterans, service
members and military families. Through the development of position descriptions that clearly
outline the job duties of both Peer Specialists and Peer Support Assistants, certification of
training requirements for both positions and consistently-defined, job-specific competencies,
Peer Specialists and Peer Support Assistants are poised to provide a unique set of services to
Veterans seeking care for mental health and substance use disorders.

VA continues to pursue a comprehensive strategy to promote safe prescribing of opioids when
indicated for effective pain management. Among other efforts, VA has completed initial
implementation of a national initiative that provides facilities with training on use of real-time
data on opioid prescribing practices at the patient and provider level.




                                              4 of 9

VA Office of Inspector General                                                                  8
                       Independent Review of VA’s FY 2013 Detailed Accounting Submission to ONDCP



                                                                                     Attachment

Consistent with the Clinical Practice Guideline on Management of Opioid Therapy for Chronic
Pain that VA developed in collaboration with the Department of Defense, educational
presentations for providers have addressed evidence on relative benefits and challenges of
chronic opioid therapy, examples of strong models for changing practice behavior and lessons
learned from sites regarding implementation strategies of the stepped care model of pain
management.

The Homeless Programs continue to fund SUD specialists to support the Department of Housing
and Urban Development – VA Supportive Housing (HUD-VASH) program. In addition, there
are SUD Specialists working in Health Care for Homeless Veterans (HCHV) programs including
32 newly funded HCHV SUD Specialist positions added in FY 2012. These specialists
emphasize early identification of SUD as a risk for maintaining permanent housing, promote
engagement or re-engagement in SUD specialty care programs and serve as linkages between
Homeless and SUD programs. As another effort to reduce homelessness and risk of
homelessness, VHA has expanded outreach services to justice involved Veterans with funding
for 172 full time Veterans Justice Outreach Specialists distributed across facilities based on need.

During FY 2013, VHA continued implementation of clinical symptom monitoring using the
Brief Addiction Monitor (BAM) that transmits responses to the national data base with over
7,500 Veterans assessed at the beginning of a new episode of SUD specialty care during the 4th
quarter of FY 2013. The BAM is designed to assist SUD specialty care clinicians in initial
treatment planning and monitoring the progress of patients while they are receiving care for a
substance use disorder, serving as a basis for giving feedback to them to enhance their
motivation for change, and informing clinical decisions, such as the intensity of care required for
the patient. In addition to items addressing risk and protective factors for recovery, the BAM
assesses self-reported substance use in the prior 30 days including an item asking about days of
any use of illicit or non-prescribed drugs as well as items on use of specific substances.

In FY 2013, VHA provided services to 129,361 patients with a primary drug use disorder
diagnosis. Of these, 34 percent used cocaine, 30 percent used opioids and 27 percent used
cannabis. Eighty percent had co-existing psychiatric diagnoses. (These categories are not
mutually exclusive.)

The accompanying Department of Veterans Affairs Resource Summary (page 8) was prepared in
accordance with the following Office of National Drug Control Policy (ONDCP) circulars (a)
Accounting of Drug Control Funding and Performance Summary dated January 18, 2013, (b)
Budget Formulation, dated January 18, 2013, and (c) Budget Execution, dated January 18, 2013.
In accordance with the guidance provided in the Office of National Drug Control Policy’s letter
of September 7, 2004, VA’s methodology only incorporates Specialized Treatment costs.




                                              5 of 9

VA Office of Inspector General                                                                    9
                       Independent Review of VA’s FY 2013 Detailed Accounting Submission to ONDCP



                                                                                   Attachment


        Specialized Treatment                Obligations                  FTE
                                              (in Millions)
   Inpatient                                 $158.676                     706
   Residential Rehabilitation and
                                             $210.426                    1,133
   Treatment
   Outpatient                                $265.556                    1,089
   Total                                     $634.658                    2,928

VA does not track obligations by ONDCP function. In the absence of such capability,
obligations by specialized treatment costs have been furnished, as indicated.

MEDICAL & PROSTHETIC RESEARCH

The dollars expended in VHA research help to acquire new knowledge to improve the
prevention, diagnosis and treatment of disease, and generate new knowledge to improve the
effectiveness, efficiency, accessibility and quality of Veterans’ health care.

                                    Obligations                Drug Control
      Specialized Function                                                          FTE
                                    (in Millions)             Related Percent
  Research and Development            $24.233                      N/A              N/A


2. Methodology Modifications – In accordance with the guidance provided in the Office of
   National Drug Control Policy’s letter of September 7, 2004, VA’s methodology only
   incorporates Specialized Treatment costs and no longer takes into consideration Other Related
   Treatment costs. Drug control methodology detailed in A.1 was the actual methodology used
   to generate the Resource Summary.

3. Material Weaknesses or Other Findings – CliftonLarsonAllen LLP provided an unqualified
   opinion on VA’s FY 2013 consolidated financial statements. They identified one material
   weakness. The material weakness is a repeat condition from the prior year audit identified as
   Information Technology Security Controls. As a result of significant improvements made, in
   FY 2013, in closing out VHA’s undelivered orders (UDOs) in a timely manner, the auditors
   removed the UDO significant deficiency. As such, the Department did not have any
   significant deficiency in FY 2013. There were no material weaknesses or other findings by
   independent sources, or other known weaknesses, which may materially affect the
   presentation of prior year drug-related obligations data.




                                                6 of 9

VA Office of Inspector General                                                                10
                       Independent Review of VA’s FY 2013 Detailed Accounting Submission to ONDCP



                                                                                   Attachment

4. Reprogrammings or Transfers – There were no reprogramming of funds or transfers that
   adjusted drug control-related funding because drug control expenditures are reported on the
   basis of patients served in various VA clinical settings for specialized substance abuse
   treatment programs.

5. Other Disclosures – This budget accounts for drug control-related costs for VHA Medical
   Care and Research. It does not include all drug-related costs for the agency. VA incurs costs
   related to accounting and security of narcotics and other controlled substances and costs of
   law enforcement related to illegal drug activity; however, these costs are assumed to be
   relatively small and would not have a material effect on the reported costs.

B. Assertions

1. Drug Methodology – VA asserts that the methodology used to estimate FY 2013 drug control
   obligations by function and budget decision unit is reasonable and accurate based on the
   criteria set forth in the ONDCP Circular dated January 18, 2013.

2. Application of Methodology – The methodology described in Section A.1 above was used to
   prepare the estimates contained in this report.

3. Reprogrammings or Transfers – No changes were made to VA’s Financial Plan that required
   ONDCP approval per the ONDCP Circular dated January 18, 20013.

4. Fund Control Notices – The data presented are associated with obligations against a financial
   plan that was based upon a methodology in accordance with all Fund Control Notices issued
   by the Director under 21 U.S.C., § 1703 (f) and Section 9 of the ONDCP Circular, Budget
   Execution.




                                              7 of 9

VA Office of Inspector General                                                                11
                       Independent Review of VA’s FY 2013 Detailed Accounting Submission to ONDCP



                                                                                   Attachment




                                              8 of 9


VA Office of Inspector General                                                                12
                       Independent Review of VA’s FY 2013 Detailed Accounting Submission to ONDCP



                                                                                   Attachment


                                 Department of Veterans Affairs
                                 Resource Summary Obligations
                                          (in Millions)
                                                                                  2013              

                                                                                  Final 

 Medical Care: 

   Specialized Treatment 

     Inpatient                                                                   $158.676
     Residential Rehabilitation and Treatment                                    $210.426
     Outpatient                                                                  $265.556
    Specialized Treatment                                                        $634.658


 Medical & Prosthetics Research:                                                  $24.233 

   Research and Development 

 Drug Control Resources by Function and Decision Unit, Total                     $658.891 



 Drug Control Resources Personnel Summary 

   Total FTE                                                                   2,928 


 Total Enacted Appropriations                                                $136,784.000

 Drug Control Percentage                                                       0.48%




                                              9 of 9


VA Office of Inspector General                                                                13
                Independent Review of VA’s FY 2013 Detailed Accounting Submission Report to ONDCP

Appendix A             Office of Inspector General Contact and Staff
                       Acknowledgments

                       OIG Contact 	                   For more information about this report,
                                                       please contact the Office of Inspector
                                                       General at (202) 461-4720.

                       Acknowledgments	                Nick Dahl, Director
                                                       Irene J. Barnett
                                                       Jenna Lamy
                                                       Joseph Vivolo




VA Office of Inspector General                                                                14
                Independent Review of VA’s FY 2013 Detailed Accounting Submission Report to ONDCP

Appendix B           Report Distribution

                         VA Distribution

                         Office of the Secretary
                         Office of Under Secretary for Health, Veterans Health Administration
                         Principal Deputy Under Secretary for Health, Veterans Health
                           Administration
                         Office of General Counsel
                         Chief Financial Officer, Veterans Health Administration
                         Management Review Service, Veterans Health Administration


                         Non-VA Distribution

                         House Committee on Veterans’ Affairs
                         House Appropriations Subcommittee on Military Construction, Veterans
                           Affairs, and Related Agencies
                         House Committee on Oversight and Government Reform
                         Senate Committee on Veterans’ Affairs
                         Senate Appropriations Subcommittee on Military Construction, Veterans
                           Affairs, and Related Agencies
                         Senate Committee on Homeland Security and Governmental Affairs
                         National Veterans Service Organizations
                         Government Accountability Office
                         Office of Management and Budget
                         Office of National Drug Control Policy




               This report is available on our Web site at www.va.gov/oig.




 VA Office of Inspector General                                                                 15
